<html>
<title> - IRAN'S NONCOMPLIANCE WITH ITS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




                     IRAN'S NONCOMPLIANCE WITH ITS
                      INTERNATIONAL ATOMIC ENERGY
                           AGENCY OBLIGATIONS

=======================================================================



                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                            
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                      
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 24, 2015

                               __________

                           Serial No. 114-23

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                       
                       
                                  _______
                                  
                      U.S. GOVERNMENT PUBLISHING OFFICE 
93-913 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                   
                       
                                 ______
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
DARRELL E. ISSA, California          BRIAN HIGGINS, New York
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
MARK MEADOWS, North Carolina         GRACE MENG, New York
TED S. YOHO, Florida                 LOIS FRANKEL, Florida
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York

                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. William H. Tobey, senior fellow, Belfer Center for Science 
  and International Affairs, John F. Kennedy School of 
  Government, Harvard University.................................     7
Ms. Rebeccah L. Heinrichs, fellow, George C. Marshall Institute..    13
Mr. David Albright, founder and president, Institute for Science 
  and International Security.....................................    20

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. William H. Tobey: Prepared statement.........................     8
Ms. Rebeccah L. Heinrichs: Prepared statement....................    15
Mr. David Albright: Prepared statement...........................    22

                                APPENDIX

Hearing notice...................................................    52
Hearing minutes..................................................    53
The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida, and chairman, Subcommittee on the 
  Middle East and North Africa: Statement from Michael Rubin, 
  Ph.D...........................................................    54
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    60

 
                     IRAN'S NONCOMPLIANCE WITH ITS

                      INTERNATIONAL ATOMIC ENERGY

                           AGENCY OBLIGATIONS

                              ----------                              


                        TUESDAY, MARCH 24, 2015

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 2 o'clock p.m., 
in room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order. 
After recognizing myself and Ranking Member Ted Deutch for 5 
minutes each for our opening statements, I will be glad to 
recognize other members seeking recognition for 1 minute. We 
will then hear from our witnesses. Thank you, ladies and 
gentlemen, for being here today. Without objection, the 
witnesses' prepared statements will be made a part of the 
record and members may have 5 days to insert statements and 
questions for the record, subject to the length limitation in 
the rules.
    Before we begin, I would like to see unanimous consent to 
enter the testimony of AEI's Dr. Mike Rubin for the record. Dr. 
Rubin was originally slated to testify at this hearing before 
it had to be postponed due to inclement weather earlier this 
month and is not unable to join us today and we thank him for 
his contributions to this hearing. And hearing no objections, 
his statement will be made a part of the record.
    The chair now recognizes herself for 5 minutes. This week 
marks the end of the second extension of the Joint Plan of 
Action and though no final deal has been made as the 
negotiations continue, it is important to take stock of where 
we stand today versus where we stood on November 24, 2013 when 
the JPOA was formally announced. While Iran may have complied 
with some cosmetic aspects of the JPOA, reducing enrichment 
stockpiles, turning off some centrifuges, the fact remains that 
Iran's nuclear infrastructure remains entirely intact.
    Let us pretend for a moment that Iran hasn't already 
violated the terms of the JPOA, a notion that is as 
preposterous as Iran's claim to its right of enrichment. The 
role of monitoring Iran's nuclear program and verifying its 
adherence to the agreement falls on the International Atomic 
Energy Agency, the IAEA, and our Intelligence Community. 
Neither option inspires much confidence considering we failed 
to detect Iran's covert activity before and we failed to detect 
nuclear activity in Syria and North Korea in the past.
    History has shown us that our intelligence assessments are 
not always perfect, so we cannot allow Iran to even possess the 
capability to get a bomb because we very likely would miss it 
if Iran makes that mad dash.
    Just last year, the Defense Department put out its own 
assessment that we do, in fact, lack the capability to detect 
covert nuclear sites in Iran and wouldn't be able to detect a 
move toward breakout. And it was before this subcommittee that 
General Hayden, former Director of the NSA and the CIA, echoed 
that sentiment saying that as long as Iran continues to block 
access to its facilities we wouldn't be able to detect its 
development of a bomb. He then stated that if he were advising 
the President, unless Iran came clean about its past 
weaponization and PMD activities, he would be compelled to say 
that the deal could not be adequately verified. So then that 
leaves the lion's share to the IAEA.
    The IAEA has a long history in Iran, but not nearly as long 
as Iran's history of subterfuge and covert work on a nuclear 
weapons program. As a signatory to the NPT and the Safeguard 
Agreement with the IAEA since 1974, Iran was required to make 
accurate and complete declarations of all of its nuclear 
material and nuclear-related activities to the IAEA. We know 
that Iran was in violation of this for decades and being in 
violation had forfeited any claim it had to enriching uranium.
    Since 2003, we know that Iran has done everything it can to 
deceive, block, and prevent the IAEA from gaining the access it 
needs to verify its nuclear program. Iran has taken advantage 
of several rounds of negotiations to stall for time and has 
exploited loopholes and ambiguities to make advances in its 
nuclear program. And this latest attempt by the P5+1 is no 
different. Since November 24, 2013, as part of the JPOA, the 
IAEA has been working to get unresolved issues regarding Iran's 
past, its work on nuclear weapons development, and other 
possible military dimensions (PMD) of Tehran's nuclear program.
    Yet, even as the negotiations continue, the IAEA reports 
that Iran has been unwilling to cooperate and is hindering its 
inquiries. There are still a dozen outstanding questions that 
the IAEA has about Iran's PMD, possible military dimension, 
that Iran refuses to provide answers for, giving us more reason 
to suspect that Iran is pursuing a nuclear program for other 
than peaceful purposes.
    The JPOA sets a bar lower than had previously been 
established through a series of six U.N. Security Council 
resolutions. For a nation that has operated a covert nuclear 
program for decades and which continues to stonewall the most 
serious inquiries from the IAEA, we should have every reason to 
suspect that its activities extend further than what has been 
declared to date.
    Just a few weeks ago, it was reported that there may indeed 
be other covert sites that Iran has not previously declared and 
this is why this nuclear deal is setting up to be a bad and 
dangerous deal because it relies on something we cannot 
guarantee. The only way that we can ensure that Iran is in 
compliance with the IAEA obligations and is not paving the way 
toward a nuclear weapon is to fully dismantle its 
infrastructure because as long as that infrastructure is 
intact, Iran will always be able to make the decision to go for 
the bomb and the IAEA or our Intelligence Community does not 
have the ability, despite what President Obama guarantees, to 
detect it in time. Shame on us.
    And with that, I am glad to yield for his opening statement 
to my good friend from Florida, the ranking member, Mr. Deutch.
    Mr. Deutch. Thank you, Madam Chairman. We are now a week 
away from the deadline to reach a political framework agreement 
in the negotiations between Iran and the P5+1 over Iran's 
illicit nuclear program. For all the talk about various 
elements of a potential deal, including future verification and 
monitoring, it has been easy to lose sight of a very clear and 
very current indicator of Iran's willingness to comply with 
international obligations. That is, its repeated stonewalling 
and noncompliance with the International Atomic Energy Agency.
    The IAEA first found Iran to be in noncompliance with its 
obligations as a member of the Nuclear Non-Proliferation Treaty 
in 2005. Between 2005 and 2010, the IAEA issued 30 reports 
detailing concerns about Iran's activities, ultimately leading 
to referral to the Security Council and successive rounds of 
sanctions, including U.N. Security Council resolutions 
demanding that Iran stop enrichment.
    Running parallel to the current P5+1 negotiations, the 
IAEA, arguably the agency that will be charged with carrying 
out future monitoring and verification of a nuclear deal, has 
been engaged in a new round of discussions with Iran. On 
November 11, 2013, the IAEA and Iran signed a joint statement 
on a framework for cooperation. In the framework for 
cooperation, the IAEA and Iran agreed to cooperate further with 
respect to verification activities to resolve all present and 
past issues.
    In its latest report, on February 19, 2015, the IAEA 
confirmed that it has only been able to make progress on 1 out 
of 12 key issues. The report states and I quote,

        ``Iran has not provided any explanations that enable 
        the Agency to clarify the two outstanding practical 
        measures nor has it proposed any new practical measures 
        in the next step of the framework for cooperation.''

As it has for years, Iran has been slow walking investigations 
and inspections, refusing to cooperate on providing past 
activities and refusing access to various suspect sites. And 
this is simply to carry out its obligations as a member of the 
Nuclear Non-Proliferation Treaty. There are many of us who fear 
that this is an unfortunate foreshadowing of the way in which 
Iran will respond to its obligations should there be a 
permanent nuclear deal that is reached.
    Now if Iran wants to show the world that it can act in good 
faith or that we should have any belief at all that this regime 
could be trusted in the future, it would start by cooperating 
with IAEA. If Iran at the end of any nuclear deal wants to be 
treated like any other NPT country, it could start by acting 
like one now.
    Extremely concerning throughout this whole process is the 
refusal to allow IAEA inspectors to certain suspect sites, 
notably Parchin. With respect to Parchin, as previously 
reported by the IAEA, the activities that have taken place at 
this location since February 2012 are likely to have undermined 
the Agency's ability to conduct effective verification. It 
remains important for Iran to provide answers to the Agency's 
questions and access to the particular location at this site.
    But most concerning is Iran's refusal to cooperate on the 
possible military dimensions of its program. How can we 
construct a viable verification regime going forward if we 
don't know fully what the Iranians have done in the past with 
respect to weaponization? Just this week, speaking at a 
conference, IAEA Director General Amano stated and I quote,

        ``We are also implementing the Joint Plan of Action and 
        we can also say the implementation is good. But with 
        respect to the clarification of issues with possible 
        military dimensions, the progress is limited and this 
        is the area where more cooperation from Iran is 
        needed.''

Amano said the Agency still was not able to conclude whether 
all nuclear material in Iran was being used for peaceful 
purposes, saying,

        ``We continue to verify the nondivergence of nuclear 
        material declared by Iran, but we are still not in a 
        position to conclude that all nuclear material in Iran 
        is peaceful in purpose.''

    Given Iran's intransigence, the international community is 
left with little choice but to believe that it has something to 
hide. And I for one would not be comfortable with any nuclear 
agreement that doesn't force Iran to come clean on its past 
activities.
    As former IAEA official Olli Heinonen wrote earlier this 
month,

        ``The IAEA can only return to routine inspections when 
        the IAEA is certain that all nuclear material and 
        activities are being used exclusively for peaceful 
        purposes.''

And I frankly don't know how we can ever be certain of this 
when we don't know everything that Iran has done.
    Furthermore, as I mentioned at the outset, it will be the 
IAEA who will be charged with carrying out verification and 
monitoring should a deal be reached. It is the IAEA that wants 
to first observe a violation and then what happens? Do the 
Iranians stonewall as the international community tries to get 
additional information? Do they have the opportunity to dispute 
the IAEA's findings? How long will it take for the IAEA to 
confirm its finding and report to the P5+1? Who is responsible 
for determining the penalties if a violation occurs? These are 
all outstanding questions that will need to be answered before 
any reasonable country should enter into any agreement with 
Iran.
    Lastly, let me just say I frankly am unclear as to how we 
can reasonably conclude any permanent agreement with Iran on 
its nuclear activities if the IAEA is unable to finish its 
parallel investigation.
    I thank the witnesses for being here today and I appreciate 
their insight and I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Deutch, for that 
opening statement.
    Mr. Issa of California is recognized.
    Mr. Issa. Thank you, Madam Chair. This is an important 
hearing. I want to hear some of the specifics about the 
breakout time, the technical problems, and to the greatest 
extent possible, some of the areas in which the proposed 
agreement falls short from an inspection standpoint. I also 
look forward to hearing Mr. Tobey who has vast background and 
knowledge and history of where we failed before. We failed with 
India. We failed with Pakistan. We failed with North Korea. The 
difference in all of those is expansive view of the world and 
terrorism that clearly is coming from Iran. If they get a nuke, 
we will never hear or see the last of it in the region.
    Having said that, I want to echo the statements of both the 
chairman and ranking member. When they talk about a country 
that cannot be trusted, Iran comes to the top of the list. 
Since 1979, consistently, year after year, decade after decade, 
what Iran says and Iran does are different. And therefore, 
until or unless there is an inspection regime that is 
verifiable and has been consistently verified before a deal, 
any expectation that once sanctions are lifted that Iran will 
suddenly be a new and different Iran are, in fact, sillier than 
the many turnarounds we saw in Groundhog Day those many years 
ago. The fact is history does repeat itself. Iran will not keep 
its promises. And Madam Chair, I want to thank you for this 
important hearing.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Issa. Mr. Boyle 
of Pennsylvania.
    Mr. Boyle. Thank you and I am reminded of the saying that 
the best way to predict future behavior is to look at past 
behavior. So I am especially interested in this subject matter. 
I have already read the three witnesses' testimonies and I 
think that judging Iran's experience with respect to the IAEA 
is a great way to project future behavior.
    I also just want to add following on the last comments that 
were made by Mr. Issa, it is actually remarkable when you look 
at humankind over the last 65 years that nuclear weaponization 
has been contained to the extent that it has. The challenge of 
Iran reaching a nuclear capability is would that be the 
catalyst to touch off Saudi Arabia and every other regional 
player also deciding that they would suddenly be interested in 
this capability.
    So with only a minute, I will save the rest of my comments 
for question time. I would just say I thank the chair and the 
ranking member for having this incredibly important hearing.
    Ms. Ros-Lehtinen. Thank you, sir. Mr. DeSantis of Florida.
    Mr. DeSantis. Thank you, Madam Chairman. I think a lot of 
Americans are wondering what is going on with these 
negotiations. Iran does cheat. Can we trust them? And then lo 
and behold, a couple of days ago, you have the Supreme Leader, 
the only decision maker that really matters chanting ``Death to 
America.'' So is he saying ``Death to America'' because he 
means it? If so, why would we be negotiating? If he doesn't 
mean it, how do we trust what he says? It is interesting how 
that was dismissed by the White House as oh, just mere domestic 
political rhetoric. Don't worry about that. But when the Prime 
Minister of Israel says something in the heat of the campaign 
and then explains, no, you have got to hold him to that. You 
are going to take him to the United Nations now. We are going 
to turn our back on Israel.
    The national intelligence estimate has removed Iran and 
Hezbollah as terrorist threats in their recent worldwide threat 
assessment. Gulf States are responding to the potential for 
this deal in a way that they clearly don't have confidence in. 
The Socialist President of France is stronger on Iran than the 
U.S. administration is right now.
    I look forward to the testimony, but I think I speak for a 
lot of my constituents that we are concerned about this deal.
    Ms. Ros-Lehtinen. Thank you very much, Mr. DeSantis. From 
Florida also, Mr. Clawson.
    Mr. Clawson. Thank you for coming. Years ago, there was a 
movie called Animal House and the characters went on a road 
trip. You all probably remember the movie. And the character 
that needed to supply the vehicle was named Flounder. And it 
was his older brother's shiny black Lincoln Mercury. And so his 
crazy fraternity brothers wanted to use that car for their road 
trip. Now he knew he shouldn't have given him the keys. 
Everybody watching the movie knew he shouldn't give him the 
keys, that it was going to be a bad outcome. We all knew it. 
And yet, he gave the keys to his brother's car and of course, 
they took the car and trashed the car. And at some point 
afterwards they said ``Flounder, you messed up'' or something 
to that effect. ``You trusted us.''
    We all know if we give the keys, the nuclear keys to Iran, 
that we are going to look back and say we really messed this 
up. We trusted them. And so I echo what has already been said 
here today. I don't know what reason we would have to trust and 
we all know if we give the nuclear keys to these folks that we 
are going to regret it. Thank you for coming today.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Clawson. Ms. 
Frankel.
    Ms. Frankel. Thank you, Madam Chair, and I may be a little 
repetitive, but there are three points that I am interested in. 
First of all, thank you all for being here.
    Number one is how confident are you that we would be able 
to verify a complete Iranian compliance with an interim 
agreement? Number two, what lessons should we learn from our 
history with North Korea? And finally, do you have an opinion 
as to whether a comprehensive agreement should require Iran to 
come clean on its entire nuclear program including 
weaponization? And I waive the rest of my time, Madam Chair.
    Ms. Ros-Lehtinen. Those were excellent questions. Thank you 
so much, Ms. Frankel.
    And now we will turn to our witnesses. Thank you very much 
for being here with us. We are pleased to welcome Mr. William 
Tobey. He is a senior fellow at the Harvard Kennedy School's 
Belfer Center for Science and International Affairs. 
Previously, he was Deputy Administrator for the Defense Nuclear 
Non-Proliferation at the National Nuclear Security 
Administration and has served in the National Security Council 
staff. Welcome, Mr. Tobey.
    Second, we welcome Ms. Rebeccah Heinrichs. She is a fellow 
at the George C. Marshall Institute where she has concentrated 
her research in the areas of nuclear deterrence and missile 
defense. She has also held fellowships from The Heritage 
Foundation, the Foundation for Defense of Democracies, and has 
previous work as a congressional staffer. Do we pronounce the S 
in the last name?
    Ms. Heinrichs. Yes.
    Ms. Ros-Lehtinen. Thank you. And last, but certainly not 
least, we welcome back Mr. David Albright, founder and 
president of the Institute for Science and International 
Security. He has authored numerous assessments on covert 
nuclear weapons programs throughout the world, as well as 
regular publications on scientific research.
    We welcome all of you. Your prepared remarks will be made a 
part of the record. And Mr. Tobey, you will be recognized after 
that great intro from Mr. Issa, Mr. Historian.

STATEMENT OF MR. WILLIAM H. TOBEY, SENIOR FELLOW, BELFER CENTER 
 FOR SCIENCE AND INTERNATIONAL AFFAIRS, JOHN F. KENNEDY SCHOOL 
               OF GOVERNMENT, HARVARD UNIVERSITY

    Mr. Tobey. Thank you, Chairman Ros-Lehtinen, Ranking Member 
Deutch, and members of the committee. It is a pleasure to be 
here to speak about a matter of surpassing importance.
    Preventing Iran from obtaining a nuclear weapon is vital to 
U.S. national security interest. The committee has asked to 
focus today on Iran's non-compliance with its safeguards 
obligations and from the opening statements, it is already 
clear that the committee has a profound understanding of those 
issues. So I will confine my remarks to just three points.
    First, in 2005, the International Atomic Energy Agency's 
Board of Governors found that Iran had violated its safeguards 
obligations by failing in a number of instances over an 
extended period of time to make necessary declarations.
    Second, since 2011, the International Atomic Energy 
Agency's Secretariat has expressed serious concerns about the 
possible military dimensions to Iran's nuclear program which 
Tehran refuses to clarify despite being required to do so under 
the Joint Plan of Action agreement. And here I would note that 
many of the members referred to the so-called possible military 
dimensions and I think that gets to the heart of the important 
issues on the Iran agreement.
    Third, in August 2014, less than 6 months ago, the United 
States Department of State sanctioned an Iranian Government 
organization for ongoing nuclear weapons development work.
    In sum, Iran has violated its safeguards obligations in the 
past. It is charged by the United States Government with doing 
so in the present. And evinces little reason to believe that it 
will not continue to do so in the future. Thank you.

    [The prepared statement of Mr. Tobey follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
                      ----------                              

    Ms. Ros-Lehtinen. Thank you very much, Mr. Tobey. Ms. 
Heinrichs.

   STATEMENT OF MS. REBECCAH L. HEINRICHS, FELLOW, GEORGE C.
   
                       MARSHALL INSTITUTE

    Ms. Heinrichs. Madam Chairman, Ranking Member Deutch, 
members of the committee, thank you for the invitation to 
participate in this hearing.
    I have spent the last 10 years in various capacities from 
working for the Congress to working as a researcher in think 
tanks studying specifically how the U.S. can deter the most 
catastrophic kinds of attack with an emphasis in ballistic 
missile defense which is critical should deterrence fail.
    Arms control is just one tool for deterring the spread of 
strategic weapons, but for it to be effective as President 
Obama said in his 2009 Prague speech, ``Rules must be binding. 
Violations must be punished. Words must mean something.'' 
Administration officials have said that Iran cannot be 
permitted to achieve a nuclear weapons capability which if it 
did, would be in violation of the NPT as well as several 
Security Council resolutions, but to allow Iran to maintain its 
ability to produce a nuclear weapon while also relieving 
sanctions would signal to foes that violations, if persistent 
enough, could end in reward.
    It is important to keep at the front of our mind the 
context of which the P5+1 has attempted to secure a diplomatic 
solution. Iran views the U.S. and Israel as its principal 
enemies and over the past three decades Iran has very 
intentionally created a network of terrorist surrogates, able 
to target U.S. interests and Israel. The regime does not view 
the P5+1 talks as an opportunity to reconcile with the West. To 
the contrary, Iran has failed to instill confidence in the most 
optimistic of U.S. diplomats that it is sincere about 
maintaining a peaceful nuclear program.
    At the recent APEC conference, Ambassador Rice said ``The 
administration holds a distrust and verify policy toward Iran'' 
an important twist on President Reagan's policy toward the 
former Soviet Union, ``Trust, but verify.''
    But Iran to this day stonewalls the IAEA's efforts to 
verify the Iranians' claim that the nuclear program is 
exclusively for peaceful purposes, making verification nearly 
impossible.
    In 2011, in November, the IAEA laid out possible military 
dimensions of the program. The Agency concluded that Iran had 
been undergoing a structured program that included possible 
weaponization activities until the end of 2003, but then went 
on to cite activities related to the development of a nuclear 
explosive device that continued after 2003 and noted that these 
particular activities could remain ongoing.
    And just last month, the IAEA report confirmed again that 
Iran still has not provided any explanation that enable the 
Agency to clarify the outstanding practical measures.
    But even if the Agency were permitted unfettered access to 
Iran's scientists, documents, and facilities, and able to get 
to the bottom of Iran's weaponization activities, by all 
accounts the negotiations do not include Iran's missile 
program. Iran wants more than a nuclear weapon. Iran wants to 
be able to credibly threaten its adversaries with a nuclear 
armed missile and also with a variety of conventionally armed 
missiles. The DNI assessed that Iran would likely choose a 
ballistic missile as its preferred method of delivering a 
nuclear weapon, if one is ever fielded.
    Missiles are a cost effective way for a country like Iran 
to pose an asymmetric threat to much more militarily 
sophisticated countries like the U.S., therefore, Iran is 
motivated to keep and improve his arsenal and has defied U.N. 
Resolution 1929 in order to do it. For example, it is improving 
its accuracy of missiles to threaten ships in the Persian Gulf 
and the Strait of Hormuz and is on a determined course to 
achieve an intercontinental ballistic missile capable to 
threaten the U.S. homeland.
    Under Secretary of State Wendy Sherman, seeming to back 
away from her previous commitments to include Iran's missile 
program before this committee, said that a comprehensive 
agreement, although it is important to address that Resolution 
1929 is ``not about ballistic missiles per se'' but about 
nuclear arms missiles. But a ballistic missile can carry 
conventional or a non-conventional warhead including those that 
are chemical, biological, and nuclear.
    In closing, Iran continues to support terrorism and there 
is no evidence that it has made the political decision to move 
away from achieving a nuclear weapons capability. Getting to 
the bottom of what the IAEA identified as the possible military 
dimensions of Iran's nuclear program ought to be a necessary 
condition to moving forward with any kind of real negotiations. 
But even if this is accomplished, any deal focused on Iran's 
nuclear program must include its missile program. Thank
you.
    [The prepared statement of Ms. Heinrichs follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                      ----------                              

    Ms. Ros-Lehtinen. Thank you very much. Mr. Albright.

    STATEMENT OF MR. DAVID ALBRIGHT, FOUNDER AND PRESIDENT, 
        INSTITUTE FOR SCIENCE AND INTERNATIONAL SECURITY

    Mr. Albright. Thank you, Madam Chairman, Ranking Member 
Deutch and other members. Thank you for inviting me to testify 
today.
    Adequate verification is critical to a long term nuclear 
deal with Iran. Robust measures are needed to ensure declared 
nuclear sites engage in only peaceful activities and more 
importantly to ensure the absence of undeclared nuclear 
material and facilities in Iran. Although the interim deal 
under the JPA strengthen the monitoring of declared nuclear 
facilities, it did little to increase the IAEA's ability to 
detect and find covert sites and activities. The IAEA has 
regularly reported in its quarterly safeguards report on Iran 
that it is not in the position to provide credible assurance 
that all nuclear material in Iran is used for peaceful 
activities.
    Whether this situation changes will largely depend on the 
ability of the United States and its partners to create a long-
term agreement that establishes legally binding conditions on 
Iran that go beyond those in the comprehensive safeguards 
agreement and the additional protocol. A critical question will 
be whether the agreement establishes a verification regime 
adequate to promptly catch Iran in cheating.
    There are many reasons why an agreement must require 
extraordinary verification arrangements as has been pointed out 
today so far by I guess every speaker. The most critical ones 
are Iran's well documented violations of its safeguards 
agreement, its actions inconsistent with that agreement and a 
peaceful nuclear program and Iran's long history of non-
cooperation with the IAEA.
    Let me just list a few additional examples. Iran has built 
several nuclear facilities in secret. It has been pointed out 
that Iran has violated its comprehensive safeguards agreement 
prior to 2004 on multiple occasions. Iran has depended 
extensively on illegal overseas procurements of a range of 
goods for its nuclear programs in violation of national laws 
and U.N. Security Council resolutions. At least one illegal 
procurement for the Arak reactor complex was attempted after 
the JPOA went into effect. Although this is not a violation of 
the JPOA, it does violate U.N. Security Council Resolutions.
    Iran has not allowed the IAEA to visit the site at Parchin 
which has been mentioned already or other sites associated with 
past work on nuclear weapons research and development and other 
military nuclear activities. Iran has delayed inspectors' 
access to sites and extensively modified buildings or the sites 
themselves in apparent efforts to thwart IAEA verification 
methods. And of course, Iran has stonewalled the IAEA in 
resolving the inspectors' concerns about the possible military 
dimensions of Iran's nuclear programs.
    This record demonstrates why Iran has a significant 
confidence deficit with much of the international community. As 
a result, verification conditions in a long-term deal will need 
to be rigorous, unprecedented, and long lasting. These 
extraordinary conditions need to remain in place for at least 
20 years. This time frame should be sufficient for the IAEA to 
achieve full confidence in the absence of undeclared Iranian 
nuclear materials and facilities and in a peaceful nature of 
Iran's nuclear programs.
    To that end, several measures are needed to ensure adequate 
verification and a long-term deal. I agree with others, other 
members, or with members and with my panel that Iran must 
address the IAEA's concerns about Iran's past and possibly 
ongoing nuclear weapons research and development. An agreement 
that sidesteps the military nuclear issues would risk being 
unverifiable. Moreover, the world would not be so concerned if 
Iran had never conducted weaponization activities aimed at 
building a nuclear weapon. If no concrete progress on this 
issue is forthcoming by July 1st, a deal should not be signed. 
If Iran in good faith asks to delay demonstrating concrete 
progress until after a deal is signed, it should not receive 
any sanctions relief until it fulfills its commitment along 
with providing a road map on resolving the rest of the IAEA's 
concerns.
    Visits to Parchin and related sites and access to key 
individuals should be part of Iran's demonstration of concrete 
progress.
    United Nations Security Council sanctions on proliferation-
sensitive goods such as dual use high tech goods should be 
maintained during the duration of the deal. Authorized nuclear 
programs could be exempted from these sanctions via specially 
monitored procurement channel. Often overlooked, these 
sanctions are critical to building an adequate verification 
regime. These sanctions are a fundamental part of ensuring that 
Iran is not secretly establishing the wherewithal to build 
secret nuclear sites, make secret advances in its advanced 
centrifuge or other nuclear programs or surge in capability if 
it left the agreement.
    And finally, a deal must include legally binding provisions 
that allow the IAEA to conduct snap inspections or anywhere 
anytime inspections. These provisions need to also require 
broader Iranian declarations about nuclear activities than 
those required in additional protocol. These conditions should 
also last for at least 20 years.
    So thank you very much for the opportunity to testify.
    [The prepared statement of Mr. Albright follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Ms. Ros-Lehtinen. Thank you very much. Excellent panelists 
and I would like to ask unanimous consent that our subcommittee 
recognize our special guest who is with us, Mr. Trent Franks, 
for a statement he would like to make.
    Mr. Franks. Thank you kindly, Madam Chair. I appreciate 
your holding this hearing so very much and as it happens Ms. 
Heinrichs was the military legislative assistant in our office 
and she taught us essentially everything we know about missile 
defense. And we are just extremely proud of the direction that 
she has gone, that she is able to teach other Members of 
Congress and I think she is a force that is important to the 
world and I really appreciate you being able to hear her 
testimony today. I don't want to embarrass her. She didn't know 
I was doing this, but we are very impressed with all the great 
things she is doing. And with that, I am just grateful for the 
opportunity and I yield back.
    Ms. Ros-Lehtinen. Well, thank you so much and I think that 
that was an accurate assessment of her capabilities and she 
made a most excellent presentation. So trained by the best. I 
don't know which way that training went. I think knowing you, 
Trent, it went toward you. But thank you so much and I am so 
pleased with the testimony today and with the members present 
and this is an extremely important topic.
    The administration's argument is that this deal will allow 
us to have the mechanisms in place to monitor and verify Iran's 
compliance with any final agreement, to hold Iran accountable, 
and to prevent it from getting a bomb, a wonderful desire, 
wonderful outcomes. But as most folks pointed out, every 
indication from past history suggests otherwise, that Iran's 
continued stonewalling of the IAEA will continue and even 
during the implementation of the JPOA this stalling and this 
stonewalling was taking place. So it gives us further cause to 
be less than optimistic.
    As the ranking member pointed out earlier this week, Olli 
Heinonen, the former Deputy Director General of the IAEA who we 
have had testify before us and Ray Takeyh, and former NSA and 
CIA Director General Michael Hayden, stated in an op ed in the 
Washington Post that even if the nuclear deal manages to push 
Iran's nuclear breakout time to 1 year, that is the stated 
goal, this might not be sufficient to detect and reverse the 
Iranian violations.
    So I wanted to ask the panelists what are the difficulties 
in achieving a verification regime that would be capable of 
detecting, of testing, of acting to stop Iran from possible 
breakout for both the IAEA and their standards and the U.S. 
Intelligence Community? What difficulties do we have in getting 
such a structure in place?
    We will begin with Mr. Tobey.
    Mr. Tobey. Thank you, Madam Chair. The difficulties are 
considerable and they are made worse by what at least has been 
reported about the shape of the deal. You referenced creating a 
1-year breakout time. That, of course, deals only with declared 
sites. So that would ensure or would aim to ensure that the 
declared sites were not used to make nuclear weapons. But the 
problem is that I think most analysts believe that were Iran to 
move in the direction of nuclear weapons, they would use 
undeclared sites, covert sites. And the burdens that are placed 
on any verification program for detecting covert sites are made 
much more difficult by the allowance of some enrichment work. I 
know that that has been bitterly disputed as to whether or not 
Iran should or should not be allowed to have any enrichment 
capability. But I think it is indisputable that if they have 
some capability it would be more difficult to verify that that 
capability isn't being diverted to covert sites.
    So that is why it is so centrally important to get to the 
bottom of the so-called possible military dimensions that all 
of you have referenced, all of us have referenced. All of us in 
this room understand the importance of that issue. And I think 
it has to be gotten to the bottom of in order to ensure that 
future activity----
    Ms. Ros-Lehtinen. Absolutely.
    Mr. Tobey. It is not about the past. It is about the 
future.
    Ms. Ros-Lehtinen. Absolutely. Ms. Heinrichs?
    Ms. Heinrichs. I agree with what my colleague just said. I 
will also just like to point out that because the nuclear 
program is so inextricably tied to their missile program, the 
missile component is something that hasn't been discussed as 
what it should be. But missile detection is much easier to do 
than to detect the weaponization elements of the nuclear 
program.
    And so we can already see what they are doing with their 
missile program. So Mr. Tobey is correct. It is almost 
impossible to get to the bottom of the verification if they 
don't even disclose what they have done in the past. And we 
need to do that first. But I would suggest that an easier, 
possibly an easier way to actually see what they are doing is 
just look to see their massive missile program.
    Ms. Ros-Lehtinen. Very good point. Mr. Albright?
    Mr. Albright. The administration's goal of having a 1-year 
breakout criteria makes sense. I mean you need something to 
drive in negotiations.
    As Mr. Tobey pointed out and it is easier to apply to 
declared facilities and where the difficulty is, of course, is 
if Iran is going to try to do covertly. And I would say may do 
a hybrid or using declared and undeclared facilities. So there 
are many paths to the bomb.
    But I think the verification, if done rigorously, can 
actually lead to a situation where you could do this in a year. 
But it certainly would, from my point of view would need to 
include coming clean on PMD. You would have to be able to make 
sure Iran isn't smuggling goods in for a covert site, so you 
would need the U.N. Security Council sanctions to remain in 
place for the duration of the deal. If it has to empower or 
give more tools to the inspectors, they are going to have to be 
able to go, in a sense, very quick notice to sites where there 
are suspicions. They are going to have to have access. And so 
you are going to have to wire all this in an agreement. And if 
it isn't wired in an agreement, then I think it will be very 
hard to satisfy the 1-year criteria for undeclared sites.
    Ms. Ros-Lehtinen. True. Now as we know, Iran impedes any 
and all IAEA inspections that it can that may be related in any 
way to its suspect activities including the PMD. And we were 
talking about the snap inspections, the any time, anywhere 
inspections. Many people believe that we need that in order for 
this deal to be credible.
    How likely is it that the Iran deal will include these 
inspection parameters that they will have this snap, any time, 
anywhere inspections? Will we insist on it? Will the IAEA 
insist on it? The Intelligence Community, will they be 
satisfied with what is in the deal to detect Iran's 
noncompliance if these snap inspections were not guaranteed in 
any final agreement?
    Mr. Tobey. With respect to the any time, anywhere 
inspections, I don't know whether or not those will be a part 
of the agreement. But I would point out that there are other 
elements that may be as or more important. It is an important 
deterrent to have the ability for inspectors to go any place 
any time. But it is not how you generally detect a covert 
operation or a covert nuclear capability. That is done by 
talking to people, by examining records, by much broader 
declarations as Mr. Albright already referenced, by the sort of 
patient and careful work that would lead inspectors to 
understand that covert activity is underway. And it is only at 
the last moment that one would actually take the final step to 
go and visit a site.
    Ms. Ros-Lehtinen. They have to do their homework before to 
be able to have that snap inspection.
    Mr. Tobey. Absolutely. So all of that work is at least as 
important as the ability to go any time any where.
    Ms. Ros-Lehtinen. Thank you. I believe the only real way to 
prevent Iran's breakout is to dismantle its nuclear 
infrastructure. As long as we are only getting access to what 
Iran wants us to see, there is no way to know, as you pointed 
out, the real extent of Iran's nuclear program. And the current 
JPOA is limited to only declared sites, as you pointed out. It 
is the undeclared sites that should really worry us.
    Mr. Tobey, you stated that by doing this it actually 
facilitates Iran's ability to cheat. If you could explain that.
    Mr. Tobey. I am sorry, by doing----
    Ms. Ros-Lehtinen. The current JPOA is limited to only 
declared nuclear facilities and by doing this, we are actually 
perpetuating that
    Mr. Tobey. Exactly. The focus of the talks has been 
creating this 1 year breakout time. So we have gone from a 
situation where the President's originally-stated goal was 
preventing Iran from getting a nuclear weapon. In other words, 
changing their strategic calculus. Now our goal is putting a 1-
year speed bump between Iran and a nuclear weapon. 
Unfortunately, that applies only to declared sites. And the 
only way to get at undeclared sites is a two-fold operation 
which Mr. Albright has already referenced. One is to get to the 
bottom of these so-called possible military dimensions and the 
second is to be able to understand and monitor all of the 
equipment and materials that Iran is either importing or 
creating itself that would be applicable to making nuclear 
weapons. So without those two elements any agreement would not 
be verifiable.
    Ms. Ros-Lehtinen. And Mr. Albright, getting back to the 
snap inspections that you were talking about, how can the IAEA 
monitor and verify any Iranian activity at sites that are 
actually undeclared? If you could push that button.
    Mr. Albright. You asked would this be an agreement. I mean 
I think there is worry that it won't be. There is certainly 
indications that the administration is making compromises and 
the Iranians have been very tough on this. This was told to me 
by one of the negotiators well over a year ago that the 
Revolutionary Guard had sent a signal through the Iranian 
negotiators that there was no way the IAEA would be allowed to 
visit military or Revolutionary Guard sites. And so that was 
stated as one of the essentially two major redlines. And of 
course, that is unacceptable, but will the U.S. push hard 
enough to overcome this redline and get to an ability to have 
anywhere any time inspections.
    Now of course, we will see, but I do worry about it and I 
think that without those I would expect they wouldn't get the 
broader declarations too, that there is a real risk that you 
won't have the package of measures needed to do adequate 
verification.
    Ms. Ros-Lehtinen. It would be interesting to see. And one 
last question and I thank the members for allowing me all this 
time and you will have that time as well.
    Ms. Heinrichs, you have done extensive work on Iran's 
ballistic missile program and as you pointed out in your 
testimony, written and verbal, several U.N. Security Council 
resolutions explicitly seek to curb Iran's missile program. But 
how closely related are Iran's progress on its ballistic 
missile program and its nuclear program? And do you think that 
the negotiations will include or should have included other 
aspects of Iran's dangerous activities including its support 
for terror, its ballistic missile program?
    We had a full committee hearing last week and I think Mr. 
Blinken, we asked him is Iran the foremost state sponsor of 
terrorism and he said it is among the top. I can't even imagine 
except for North Korea who is in that league. But if you could 
tell us about the ballistic missile program and other aspects 
of Iran's dangerous behavior?
    Ms. Heinrichs. Thank you for the question. I think it is 
possibly one of the most important questions. Iran's nuclear 
program is inextricably tied to its ballistic missile program. 
They go hand in glove. So if we simply pause their enrichment 
capability, for instance, they have already mastered the 
ability to enrich, and they are very patient, so they can go 
ahead and take a pause on that. And then continue the more 
difficult aspects of their program which is their delivery 
system, their ballistic missile system.
    So ballistic missiles, they are relatively cheap, if you 
are going to try to pose an asymmetric threat to a country that 
is much more militarily sophisticated than Iran, like the 
United States. And that is exactly what the Iranians have been 
working on doing. They have just successfully orbited their 
fourth satellite which is that technology is directly 
transferrable to an ICBM capability and the Intelligence 
Community still assesses that Iran will be able to test an ICBM 
capability which would give them an ability to coerce the 
United States' homeland by this year.
    Ms. Ros-Lehtinen. Mr. Deutch is recognized.
    Mr. Deutch. Thanks, Madam Chairman. Mr. Albright, during 
these negotiations we have been told that the goal ultimately 
is to cut off the four pathways to a nuclear bomb for Iran: 
Fordow, Natanz, Arak, and covert program. Are those the only 
four?
    Mr. Albright. That covers it. I think there is always more, 
but that is the main pathways that the administration needs to 
worry about.
    Mr. Deutch. And the access, the unprecedented access that 
we are told we received during this JPOA, during the interim 
deal, does not include any where, any time inspections?
    Mr. Albright. No.
    Mr. Deutch. What do we have now?
    Mr. Albright. Well, there is better monitoring at declared 
sites and there is some more openness at parts of the 
centrifuge manufacturing complex. But in general, no. The 
measures that were put forth as part of the JPOA were never 
intended to be able to increase the IAEA's ability to detect 
covert sites.
    Mr. Deutch. So what is it going forward? You said we need 
any where any time inspections and that those need to be in 
place for at least 20 years. Is that, given the reports in the 
news, would that be 10 years beyond the deal or would that be--
would that require a deal that is 20 years long?
    Mr. Albright. It could be done independently of the limits 
on the nuclear program. I mean one would assume that when it is 
on the Arak reactor are indefinite. They won't be reversible, 
so once they are put in place there will just be limits on the 
ability to make weapon-grade plutonium.
    On the centrifuge number, those could be lifted after some 
period of time. These inspection arrangements, these broader 
verification requirements must continue past that, I would 
argue. You are going to need them for a long time. In a sense, 
Iran has been in noncompliance for 20 years. I mean it has 
severe lack of credibility and 10 years is just not enough.
    Mr. Deutch. What does that mean, they have been in 
noncompliance? Take a step back. We are all steeped in this. We 
have been focused on this for a long time. For people who are 
tuning in to these talks because it is the very end and there 
is a lot of talk to understand about striking a deal with Iran 
and stopping it from acquiring nuclear weapons. Why are we 
concerned? What have they done wrong all this period? And 
weaponization and creation of a bomb, but they tell us they 
want to have a peaceful nuclear program. For people who haven't 
paid attention, explain to them why this matters so much.
    Mr. Albright. It is a little bit like someone who breaks 
the law. Iran has been deceiving the IAEA, the international 
community, for 20 years or so. And its intention was to put 
together in secret nuclear capabilities and part of that 
capability appears to have been oriented to getting nuclear 
weapons. So in a sense you have a situation where they have 
been caught and convicted. That is in the sense what the U.N. 
Security Council resolutions signify and that they are on 
probation. And we need time in order to verify that they are 
reformed. And in that period you need to limit their ability, 
in a sense their freedoms to move on nuclear programs.
    Mr. Deutch. And they have not verified anything to date. A 
lot of believe we shouldn't, we can't make a deal, shouldn't 
consider making a deal if they are not willing to come clean on 
the past military dimensions of the program. Would it make 
sense for us to do that?
    Mr. Albright. Obviously, the administration is thinking 
about not doing that. I think that is pretty clear. Or doing it 
in a much more limited way than maybe we have discussed today.
    Now I think one of the problems of doing that is if I can 
go back to the days of the agreed framework, people were really 
scared of war with North Korea in '94. And a decision was made 
to call off the inspectors and a deal was made that essentially 
hobbled the inspectors. They were brought forth to do 
monitoring and I at the time supported the agreed framework, 
but I understood its weakness.
    In this case, there is a risk that if you don't get the 
IAEA's strengthened, it doesn't go into this deal knowing what 
Iran has done in the past, you are hobbling them and 
undermining their ability to verify. But in this case, unlike 
the North Korean case, the IAEA is going to be called upon to 
be the lead investigator in a sense to determine whether Iran 
is complying.
    Mr. Deutch. Right, so that is what I want to understand. So 
the IAEA--Iran has completely stonewalled. They have not been 
forthcoming. They have not granted the access to the IAEA. They 
have not answered the questions posed by the IAEA which stem 
from the fact that we know that as you point out, we know what 
Iran was trying to do to develop nuclear weapons. They were 
caught. They were convicted, but we are now at the point where 
they are not complying with what the world has expected them to 
comply with, right?
    Mr. Albright. That is right.
    Mr. Deutch. So the question is going into a deal, if there 
is one, regardless of what the deal looks like, if it is the 
IAEA that is ultimately the entity that is going to monitor and 
verify whether the terms of a deal are being lived up to by the 
Iranians, how, number one, how can that happen? How do we trust 
that that can work given 20 years of experience that we have 
had with Iran's interaction with the IAEA?
    Mr. Albright. I would agree that it can't work. I mean it 
is really--I mean no one is looking for Iran to have a mea 
culpa. It would be nice and it would be very helpful, but there 
are ways to do this sort of thing. But Iran can't continue to--
it essentially almost abused the IAEA. They issue reports. One 
came out a couple of weeks ago which just belittles the IAEA. 
And also in that report, they argue strongly that the IAEA's 
verification as it exists today should be weakened. So you have 
a situation that is unacceptable and Iran does need to face up 
and make changes in how it views verification and how it treats 
the IAEA and how it satisfies the IAEA's condition.
    And I would say that it may be that in the way the 
administration is negotiating this is that you can't force Iran 
to do this before the deal is signed, but you certainly can say 
no sanctions relief until they at least make concrete progress 
on addressing the IAEA's concerns.
    Mr. Deutch. Right. So the question is if you--if there is a 
deal that is reached, the moment that a deal is struck if there 
is sanctions relief of any kind and according to the reports in 
the press which is what we have to go by on the current 
negotiations, according to the reports in the press, Iran's 
sticking point is that they want massive sanctions relief or 
total sanctions relief at the outset. If you provide any sort 
of significant sanctions relief the day the agreement is 
signed, you will have rewarded Iran for 20 years of bad 
behavior, flouting international norms, and ignoring the 
demands of the IAEA. Isn't that right?
    Mr. Albright. Yes, I agree.
    Mr. Deutch. And finally, if the goal is a year's breakout 
time and we have just gone through all these concerns about the 
IAEA, is a year enough time? Is that goal enough for the IAEA 
to detect a potential breakout, to verify it, and then take 
action to stop it, particularly given that there are other 
countries Iran may argue the other countries, the P5+1, the 
U.N. may be brought in, is a year breakout time realistic if 
the IAEA is the entity that is tasked with enforcing it?
    Mr. Albright. At declared sites, I think it is. And again, 
I think some of this depends on the U.S. being willing to take 
military action if it believes there has been a violation and 
it is confirmed. And the idea with the year is that there would 
be enough time to gather international support to avoid that. 
But in the end, some of this is going to rest on the U.S. being 
willing to do that.
    Now in the covert sites, if the verification is not 
improved from what would be traditional IAEA safeguards and 
additional protocol, then it is going to be tough. I mean you 
could easily have had a situation with Iran where you do spend 
a year arguing in the United States, internationally, on what 
has happened, is it really a violation? You may have trouble 
pulling together a coalition and the U.S. may be put in a 
position of having to decide does it take military action when 
there is deep opposition to that military action? But if the 
verification arrangements are done properly, then I think a 
year can be enough. But it is going to require a very intrusive 
verification system and it is unclear if that can be 
accomplished.
    Mr. Deutch. Madam Chairman, I appreciate the indulgence. 
Anything short of that then, anything short of unprecedented 
any where any time inspections demanded by the world of Iran 
which Iran should comply with given their history and given 
what else would be included in this deal, anything short of 
that makes that 1-year breakout time which has been the goal we 
have been told of these entire negotiations significantly 
perhaps dramatically less than 1 year leaving us with a 
dramatically reduced period of time in which to respond.
    Mr. Albright. Could be, but the one thing I would say any 
where any time is not unprecedented. That language is adopted 
from what South Africa said it would do after it decided to 
come clean about its past nuclear weapons program which also 
was a big fight. South Africa refused to do that initially 
despite the evidence, but under pressure decided to come clean 
and accepted this idea of anywhere any time inspection. So I 
think it is not unprecedented. But I do think that there is a 
lot of parts to verification. And so I wouldn't want to say 
that if you don't get one exactly as you need it, that the 
thing falls apart. You have to look at it system wide. But 
without any time any where inspections, the job gets much 
harder.
    Mr. Deutch. I appreciate that, Madam Chairman, thank you 
and I thank the other witnesses for your testimony. I didn't 
want to exclude you, but I am out of time. Thank you.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Deutch. Mr. 
DeSantis of Florida.
    Mr. DeSantis. Mr. Tobey, are you comfortable with the 
enrichment ability that is contemplated under this deal? It had 
always been that they were not going to be able to enrich. Now 
they have a substantial number of centrifuges. Are you 
comfortable with that?
    Mr. Tobey. The original idea to ban all enrichment was to 
keep Iran from gaining the technical capacity to understand 
that, so they couldn't mount a covert effort. Unfortunately, 
that horse is out of the barn. So the original rationale for 
that, I think, is diminished. At the same time, zero is a lot 
easier to verify than some higher number which would allow the 
technology and equipment perhaps to be diverted.
    So while I think it is not an ideal situation, the only 
terms under which I would be comfortable is if we had two 
additional verification provisions. One would be to get to the 
bottom of the possible military dimensions as we have talked 
about and the second would be to have firm control over the 
materials and equipment that Iran either produces or imports as 
Mr. Albright has described. So this would be an ongoing 
monitoring situation.
    And so by allowing some level of enrichment, I think it 
demands a much more rigorous verification system.
    Mr. DeSantis. The 10-year sunset that is reported, is that 
adequate?
    Mr. Tobey. It doesn't strike me as adequate. This issue was 
reported by the IAEA Board of Governors to the U.N. Security 
Council 10 years ago. I am dumbfounded that we might have an 
agreement that would be shorter than the time it has taken to 
negotiate it.
    Mr. DeSantis. Ms. Heinrichs, do you agree with that? Ten 
years to just simply walk away after 10 years and trust that 
they are going to behave. Does that bother you?
    Ms. Heinrichs. No, I don't think that we should trust them 
now. I think 10 years is not adequate because what we really 
want is for them to make the political decision to move away 
from a nuclear weapons capability and they have not done that.
    Mr. DeSantis. In terms of the military sites, because it 
seems to me that if you are not having any type of inspection 
of those sites, if there are secret sites, we have no reason to 
take Iran at its word, it seems to me that they could abide by 
the deal in the sense of allowing full inspections and yet they 
could still end up developing a nuclear weapon, correct?
    Mr. Tobey. One thing that I would point out is that 
Secretary Kerry, I think reasonably, said it is unacceptable 
for Iran to be 2 months away, to have a 2-month breakout. If it 
is unacceptable today, I don't understand why it becomes any 
more acceptable 10 or 15 years from now and at least what has 
been reported was that the broad restrictions in the Iranian 
program would fall away after 10 or 15 years which would enable 
them to move right back to that 2-month breakout period.
    Mr. DeSantis. Even if the inspections were allowed to go to 
these sites, if the military sites are not included, then they 
could conceivably keep the deal with respect to those 
inspections, but still develop a capacity. Is that inaccurate?
    Mr. Albright. It is a fear. I mean if the IAEA can't do its 
job and get to the bottom of what has happened, the PMD issues, 
namely, and then be able to continue verifying no activity at 
those sites and among those people and potentially other sites, 
then it would be an agreement where Iran could just wait it 
out.
    But the idea is that you try to at least have restrictions 
on the program for a generation. That was the goal. Looking 
back a year, the goal was to have restrictions, pretty strict 
restrictions on the whole program for a year, intrusive 
verification, and then over that period of time you would then 
develop confidence that they wouldn't try to get weapons in the 
future.
    Mr. DeSantis. Or give time to have a change in the regime 
or change in the nature of the regime.
    Mr. Albright. That is right. And so if you shorten that, 
and it is just 10 years, then of course, you have to worry 
more. Now I would say be careful. We don't know the details. 
The administration is going out of its way to confuse us, I 
will admit, when they talk about using double digits or they 
use terms like at least 10 years. They talk about phasing on 
the enrichment programs. So I think the situation is very 
confused. But I do think it is very logical to demand that the 
verification conditions either be permanent or last at least a 
generation. And I think that has be a very clear message that 
the administration hears.
    Mr. DeSantis. Look, I am mindful about kind of jumping on 
some of these reports. At the same time, you do look at the 
behavior of the Gulf States and what they see. Their behavior 
is not very comforting in terms of this being a deal that they 
have confidence in, and obviously they fear an Iranian bomb 
very much.
    Look, my bottom line is we have seen different examples of 
this where North Korea, obviously, didn't work. I think Gaddafi 
feared he was going to be removed from power. He really was 
worried about the threat of military force. And I just wonder 
whether Iran really believes that that credible threat is on 
the table. And if they don't, then man, I think that they have 
every incentive to want to cheat this deal. I am over my time 
and I will yield back. I am good. Thank you.
    Ms. Ros-Lehtinen. Thank you very much, Mr. DeSantis. And 
thank you, Mr. Boyle, from Pennsylvania. Thank you, sir.
    Mr. Boyle. As you might remember from my brief opening 
remarks, consistent with what I think pretty much everyone who 
has spoken on both sides of the aisle here, I come to this 
whole issue as someone who is highly skeptical that we could 
reach an agreement that reasonable people would have full 
confidence in.
    That said, it is worth remembering, I think it was Ms. 
Heinrichs who quoted President Reagan, ``Trust, but verify.'' 
He quoted the Russian proverb, ``Doverai no proveryai.'' The 
reason why we remember that is because it was said at a signing 
ceremony with Mikhail Gorbachev. And so those agreements that 
after the failure at Reykjavik, when the agreements were signed 
in '87 and '88, they were criticized at the time by some as 
naive and going too far. And I would say that history proved 
them--proved President Reagan pretty well in terms of reaching 
those agreements.
    So toward that end, while I am highly skeptical given 
Iran's repeated history of bad faith behavior with the IAEA and 
with the international community and being with one of the 
largest, if not the largest, exporters of terror in the world, 
all of that having been said, if by some grace of God a new 
leadership were to come in Tehran, actual, real, Western-
oriented, moderate, who wanted Iran to rejoin the international 
world, and give up this path that they have been on over the 
last three and a half decades, what would a real agreement look 
like that each of you would say that is something that is worth 
signing? That is something that we could place trust in and 
actually have real confidence that it was actually an agreement 
worth signing?
    Mr. Tobey. In terms of a technical model, it has already 
been referenced, the South Africa example is probably a good 
one. I would also look for markers of a strategic decision just 
as you described, that Iran had decided to forego pursuing 
nuclear weapons in favor of a better relationship with other 
nations.
    Frankly, I do come back again to this possible military 
dimensions issue. If they are not willing to come clean on 
that, it not only makes verification more difficult, but it is 
a marker of Iranian intent because they clearly want to hide 
something in order to preserve it.
    And so I would say that an agreement that looked like it 
was going to be useful and that is what I think all of us here 
seek. I mean the reason we have criticisms about what may be 
taking place is because we want a better deal, not because we 
don't want a deal. It would be to get to the bottom of that 
issue.
    Ms. Heinrichs. I appreciate the question. I would agree 
that we have to get to the bottom of the possible military 
dimensions, but again, I think it is a bit of a litmus test to 
look at their missile program. There is no reason that the 
Iranians need to be as dedicated to their massive ballistic 
missile arsenal that they have if they don't intend to use it 
for coercion. And who are they trying to coerce? It is the 
United States. It is the United States' influence in the 
region. And so I think unless we see a political decision or a 
strategic decision of the Iranians to move away from this 
ballistic missile capability, which I believe is inextricably 
tied to their nuclear program, and then allow complete 
unfettered access of the IAEA to its nuclear program to show 
that they are actually coming clean, essentially, the South 
Africa example being a good one, then we should not trust them 
enough to secure a diplomatic solution to this problem.
    Mr. Albright. I think one of the worries that was alluded 
to earlier that they will just wait it out. They did some of 
that during the time of the suspension from '03 to '06 and 
President Rouhani bragged about how they were able to advance 
while waiting it out. So I think one of the concerns now is 
that the pattern of the Iranians appears to be to basically say 
that yes, we will give up the IR1s which are pretty decrepit 
machines, but we want to be able to advance our centrifuges and 
build advanced ones and keep that program alive.
    And I think that this deal is going to be much less 
worthwhile if Iran succeeds in being able to do centrifuge R&D 
on a substantial basis and I think there is a real worry that 
that could happen. And clearly, it is where I think the 
Iranians are building their narrative. And the U.S. has 
invested a lot into capping and reducing the IR1 program which 
may be the thing that Rouhani cares least about at this point 
in time. Certainly, the nuclear people probably don't care 
about.
    Some other things that are very important is and I think 
the administration has made progress is in getting rid of the 
stocks of well-enriched uranium in Iran. They can't stay there. 
Whether they are in hexafluoride form or oxide, they should 
leave the country. So I think they have made good progress on 
getting that established, but whether Iran will go along or not 
is still an open question, but if there are very minimal stocks 
in Iran, then that would be--that would build confidence in 
this deal.
    Another thing is that Fordow would be shut down and not 
involved in any enrichment, that Iran should not have deeply 
buried sites that contain any gas centrifusion enrichment 
capability. That is critical, too. Again, I am not sure the 
administration is going to get that or is even seeking that at 
this point in time.
    So I think that there are many ways you could put together 
an agreement and I think the administration has thought through 
all of them and so now the question will be are they going to 
come up with an agreement with enough of those in there that 
one can have confidence in.
    Mr. Boyle. Well, I thank you, all three of you and I see I 
have hit my time limit. But I would just ask in closing and 
maybe a quick response, South Africa has been referenced a 
number of times. I think though not on the nuclear part, but in 
terms of a country that was clearly engaging in terrorism and 
then actually decided they wanted to rejoin the international 
world and that was more important to them under the end of 
Muammar Gaddafi. That is actually an example of a country that 
remarkably changed its behavior.
    I was wondering if we know of any others that we can point 
to as a potential model to hope and work toward Iran joining?
    Mr. Boyle. There has been other victories, less well known, 
but Taiwan had a nuclear weapons program and the U.S. 
intervened politically to end it. And it was done very quietly. 
So I think there are other victories. Same in South Korea. It 
was a little tougher there, but--so I think there is ways to do 
this, but again, I think it depends on the U.S. exerting its 
influence and the country changing its attitude toward some of 
these issues.
    Mr. Tobey raised this issue of----
    Mr. Boyle. And every one of the examples cited it was 
ultimately initiated by a decision made in that capital to 
completely change and which direction it was going and change 
its priorities and then behavior changes followed that.
    Mr. Albright. But under a lot of pressure. Those cases 
involved tremendous amounts of pressure, even South Africa. 
There were cases, I was told, meetings with nuclear officials 
in South Africa with U.S. officials where a South African 
official was fist pounding essentially on the table denying 
they had a nuclear weapons program just a week or two before de 
Klerk admitted, yes, we did have one. So I think that pressure 
matters. And in South Africa, congressional pressure mattered. 
If you look back in history, you will see that the U.S. 
Congress played a very important role.
    Ms. Heinrichs. I would just add that it was under enormous 
political pressure, but it was also in the case of Libya and 
then as the Intelligence Community has said that they believe 
that some of the weaponization activities did cease around the 
2003 time line, about the time that Libya then voluntarily gave 
up their WMD program, but it was under the fear of a credible 
threat of military invasion. It was when the United States went 
into Iraq. So I think that that is important to keep in mind 
that without the credible threat of force, that some of these 
things might not have happened.
    Mr. Boyle. Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Thank you very much and unfortunately 
that credible show of force is lacking in Iran. The 
negotiations look to be we are playing a very weak hand and I 
don't think that pressure is being applied to Iran and Congress 
has been muted and the sanctions are being lifted and we are in 
pretty bad shape. But you were wonderful panelists so we thank 
you very much for being here with us. And with that, the 
subcommittee is adjourned. Thank you.
    [Whereupon, at 3:48 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

               
Material submitted for the record by the Honorable Ileana Ros-Lehtinen, 
 a Representative in Congress from the State of Florida, and chairman, 
            Subcommittee on the Middle East and North Africa
            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                [all]
</pre></body></html>
